<html>
<title> - JOBS AND OPPORTUNITY: LOCAL PERSPECTIVES ON THE JOBS GAP</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         JOBS AND OPPORTUNITY:
                   LOCAL PERSPECTIVES ON THE JOBS GAP

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2018

                               __________

                          Serial No. 115-HR05

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-809                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------      

       


                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
MIKE KELLY, Pennsylvania             LINDA SANCHEZ, California
JIM RENACCI, Ohio                    BRIAN HIGGINS, New York
PAT MEEHAN, Pennsylvania             TERRI SEWELL, Alabama
KRISTI NOEM, South Dakota            SUZAN DELBENE, Washington
GEORGE HOLDING, North Carolina       JUDY CHU, California
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan
DARIN LAHOOD, Illinois

                      Gary Andres, Staff Director

                 Brandon Casey, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                    ADRIAN SMITH, Nebraska, Chairman

JASON SMITH, Missouri                DANNY DAVIS, Illinois
JACKIE WALORSKI, Indiana             LLOYD DOGGETT, Texas
CARLOS CURBELO, Florida              TERRI SEWELL, Alabama
MIKE BISHOP, Michigan                JUDY CHU, California
DAVID G. REICHERT, Washington
TOM REED, New York


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of April 12, 2018, announcing the hearing...............     2

                               WITNESSES

Connie Wilhelm, Chief Executive Officer, Home Builders 
  Association of Central Arizona.................................     8
Toby Thomas, President, Austin Electric Services, LLC............    13
Brian Potaczek, Electrician, Austin Electric Services, LLC.......    17
Kelly Tessitore, Vice President of Advancement, Jewish Vocational 
  Service........................................................    20
Heather Terenzio, Chief Executive Officer, Techtonic Group, LLC..    26
Tony Girifalco, Executive Vice President, Delaware Valley 
  Industrial Resource Center.....................................    50
Justin Welner, Vice President for Human Resources, Spirit 
  AeroSystems....................................................    57
Andrew Wells, Director, Workforce Development Center, Chicago 
  Urban League...................................................    64
Peter Barrett, Senior Vice President, Marketing and Corporate 
  Development, Smoker Craft, Incorporated........................    68

 
                         JOBS AND OPPORTUNITY:
                   LOCAL PERSPECTIVES ON THE JOBS GAP

                              ----------                              


                        THURSDAY, APRIL 12, 2018

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:02 p.m., in 
Room 1100, Longworth House Office Building, Hon. Adrian Smith 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

              ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Thursday, April 12, 2018
HR-05

                Chairman Smith Announces Human Resources

             Subcommittee Hearing on Jobs and Opportunity:

                   Local Perspectives on the Jobs Gap

    House Ways and Means Human Resources Subcommittee Chairman Adrian 
Smith (R-NE), announced today that the Subcommittee will hold a hearing 
entitled ``Jobs and Opportunity: Local Perspectives on the Jobs Gap'' 
on Thursday, April 12, at 2:00 p.m. in room 1100 of the Longworth House 
Office Building. This hearing will highlight employers' demand for 
workers and the need to get more Americans into the labor force.
      
    In view of the limited time to hear witnesses, oral testimony at 
this hearing will be from invited witnesses only. However, any 
individual or organization may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Thursday, April 26, 2018. For questions, or if you encounter 
technical problems, please call (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.
      
    All submissions and supplementary materials must be submitted in a 
single document via email, provided in Word format and must not exceed 
a total of 10 pages. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    All submissions must include a list of all clients, persons and/or 
organizations on whose behalf the witness appears. The name, company, 
address, telephone, and fax numbers of each witness must be included in 
the body of the email. Please exclude any personal identifiable 
information in the attached submission.

    Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days' notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available at
    http://www.waysandmeans.house.gov/

                                 <F-dash>

    Chairman SMITH. The Subcommittee will come to order. Good 
afternoon, and welcome to the first in an important series of 
hearings the Human Resources Subcommittee will be holding to 
focus on jobs and opportunity.
    The purpose of these hearings is to demonstrate how as our 
economy continues to strengthen following the enactment of the 
Tax Cuts and Jobs Act, employers' demand for workers is growing 
and our Human Services programs have a role in supporting the 
next wave of workers needed to continue this economic growth.
    On Tuesday, the President signed an Executive Order 
directing agencies to seek new opportunities to reorient our 
welfare system toward economic opportunity. I agree with the 
President on this matter and appreciate his bringing the right 
tone at the right time to this conversation.
    There is a chart here. During these hearings, we are going 
to be talking a lot about the jobs gap, the difference between 
employers' demand for workers, shown as job openings in the 
chart, and the declining number of individuals in the 
workforce, shown as the labor force participation rate.
    The space in the middle separating these two lines is what 
we are calling the jobs gap. Addressing the jobs gap is about 
accessing economic growth and opportunity for those on the 
sidelines of the American workforce. This is particularly 
important given the healthy labor market and low unemployment 
rate we are seeing as a result of businesses creating jobs and 
expanding after the enactment of the new tax law.
    [The submission for the Record of Hon. Adrian Smith 
follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Just this week, The Washington Post editorial board 
highlighted this issue by saying, ``American employers in an 
array of industries, manufacturing, agriculture, trucking, home 
building, energy, food service, retail, and others are warning 
a long brewing labor shortage is reaching crisis proportions.''
    The Wall Street Journal reported if every last jobless 
citizen in the 12 Midwestern States filled an open job in the 
region, 180,000 positions would still be left unfilled.
    What do employers and job openings have to do with the 
programs under the Human Resources Subcommittee? A lot, 
actually. We know when individuals and parents are working 
full-time, the poverty rate drops to just 3 percent.
    We know when workers are matched to employers with the 
supports provided by programs under the Subcommittee, such as 
child care, case management, and transportation, that job 
opportunities and the American dream can become a reality for 
more Americans.
    Last year, the Subcommittee set the stage for this 
discussion today. Those hearings were about people on the 
sidelines.
    We heard from experts who examine the declining 
unemployment of working-age men who told us there are more than 
7 million men in America not working or looking for work.
    We also heard about the troubling trend we are seeing among 
our youth and young adults, those 16 to 24 years old. We 
learned that there are 5.5 million not in school and also not 
working.
    This hearing takes the next step to see how this reality is 
translating for employers and workers at the local level. Now 
we see employers getting more involved by investing in 
apprenticeships, training, and helping individuals get 
connected to supportive services to address barriers to 
employment.
    What is different now is a strong economy fueled by the Tax 
Cuts and Jobs Act. This isn't about charity or government 
programs. We will hear from our witnesses there is a strong 
business case, meaning it is in the best interest of their 
business to invest in building the workforce.
    Today, we will hear from Connie Wilhelm, Chief Executive 
Officer at the Home Builders Association of Central Arizona. 
Ms. Wilhelm runs a large Home Builders Association representing 
employers with growing workforce needs.
    As a way to address this, her association has partnered 
with Arizona correctional facilities to prepare inmates for 
jobs after release by getting them access to training in the 
construction trades and addressing needs for transportation, 
housing, and soft skills.
    She is not running a social services agency either. This is 
a mutually beneficial partnership which supplies home builders 
with much-needed workers and gives inmates marketable skills 
they can use to find employment when they are released. It is 
win-win.
    We are also very excited to hear from Mr. Potaczek--did I 
get that right--okay, sorry about that--the embodiment of the 
partnerships we are referencing. He is now working as an 
electrician at Austin Electric after participating in training 
at the Arizona Department of Corrections' Employment Center. I 
am grateful to him for sharing his story and helping our 
Subcommittee gain a fuller picture of the issue at hand.
    My top priority for this Subcommittee and this Congress 
continues to be ensuring greater opportunity for all Americans. 
This hearing features two panels of witnesses who are 
experiencing real workforce challenges and have stepped up to 
show ways we can get individuals back into the labor force.
    Today, I am excited to learn from our witnesses about their 
experiences and what is working in local communities, so we can 
translate these lessons into better public policies which help 
families escape poverty and climb the economic ladder.
    With that, I recognize Ranking Member Davis for 5 minutes 
for his opening statement. Mr. Davis.
    Mr. DAVIS. Thank you very much, Mr. Chairman, and I want to 
thank you for holding this hearing. And I believe that this 
area of work is one of the most important that is needed to be 
done in our country.
    This month marks the 50th anniversary of the assassination 
of Dr. Martin Luther King, Jr. His work remains unfinished. At 
the time of his assassination, Dr. King was focusing the civil 
rights movement on economic justice and the opportunity gap 
that exists in this country. Indeed, I am proud to represent 
North Lawndale, the community in which Dr. King lived as he 
directed attention to the structure barriers that keep groups 
of Americans poor.
    If communities lack quality education, economic opportunity 
is limited. If communities lack transportation, affordable 
housing, and employers offering good jobs, economic opportunity 
is limited. If communities lack substance abuse services or job 
training programs, economic opportunity is limited.
    I hope we can agree that if we have a gap between available 
jobs and the Americans searching for opportunities, it is our 
obligation to close the gap by knocking down the obstacles 
keeping people from work, not by vilifying workers who have 
fallen on hard times and who need our help to overcome 
barriers.
    The Executive Order the President issued yesterday which 
instructs agencies to find ways to cut services and basic 
necessities for people who are poor or don't have jobs is 
exactly the wrong approach.
    For our Subcommittee, the right approach must include 
addressing structural barriers in the Temporary Assistance for 
Needy Families programs or TANF. Otherwise, our policies will 
fail our rural, urban, and suburban constituents who hit these 
barriers daily and are being left behind.
    I work closely with a number of programs in Chicago that 
work alongside employers to provide real opportunities for 
people who have been left behind by the labor market and are 
hitting walls every time they try to get a good job to make a 
better life. When I talk to these outstanding workforce 
development programs, I am struck by how few of them get any 
support from TANF, which is in this Subcommittee's 
jurisdiction.
    TANF provides $16.5 billion a year in State grants which 
are supposed to support work and ensure that low-income 
families can access basic necessities like food and housing. If 
TANF is not supporting these local education and training 
programs that lift work, are open to good jobs, and put them on 
a path to better things, that is TANF's failure and Congress 
has set TANF up for failure.
    TANF includes arbitrary limits on education and training, 
even though we know a lack of skills and credentials is a key 
reason why many struggling parents cannot find good jobs.
    TANF provides States with incentives to reduce the number 
of families being helped, but no incentives to knock down 
barriers or provide real opportunities for parents to find good 
jobs that will lift their children out of poverty.
    And TANF's investment in children and families is shrinking 
every year, as States divert TANF funds to fill budget gaps, 
and the Federal Government funding is not adjusted for 
inflation.
    Right now, TANF is creating additional roadblocks to good 
jobs for people who are already facing barriers. Our 
Subcommittee has the chance to make TANF a key to unlocking 
economic opportunities and continuing Dr. King's work.
    I look forward to hearing from our witnesses about how we 
can lift out of poverty and close the economic gap.
    Again, Mr. Chairman, I thank you for this hearing and yield 
back the balance of my time.
    Chairman SMITH. Thank you, Dr. Davis. I appreciate your 
comments.
    Without objection, other Members' opening statements will 
be made a part of the record.
    I would like to welcome our first panel of witnesses to the 
table and recognize Mr. Schweikert for the purpose of 
introducing his constituents from Arizona.
    Mr. SCHWEIKERT. Thank you, Mr. Chairman, though you 
actually covered part of it.
    This is sort of a special occasion for me. Ms. Wilhelm, 
Connie, is actually one of my oldest friends. Not a comment 
about age, but I have known her probably the majority of my 
life. Her brilliant son is actually an intern in our office.
    But she is unique in the fact she is running a very large 
Home Builders Association and is a true pioneer as a woman 
doing that.
    But she also had an amazing vision here of could we reach 
into parts of our communities that have had a tough time, and 
in this case those who have been in correctional facilities, 
and bring them into our shortage of labor.
    Toby Thomas is the President of Austin Electric. He is one 
of the partners with Connie Wilhelm and the Central Arizona 
Home Builders Association in bringing this program together and 
training.
    And Brian--and it is Potaczek--Potaczek is, actually I am 
very proud of him coming here because sometimes walking into a 
room like this can be somewhat intimidating, but he has a very 
important story for us to hear. Because as we are looking at 
the most recent U6 crosstabs, we are actually seeing something 
amazing happen, and those who have been marginalized, 
particularly those with felonies, are actually getting 
opportunities to work, and I believe we are about to hear about 
a program that is working.
    Thank you, Mr. Chairman.
    Chairman SMITH. Thank you.
    The remaining witnesses on our panel include Ms. Kelly 
Tessitore--you are not just saying yes--okay, okay--Vice 
President of Advancement at Jewish Vocational Serice in Boston, 
Massachusetts; and Ms. Heather Terenzio, Chief Executive 
Officer of the Techtonic Group from Boulder, Colorado.
    Witnesses are reminded to limit their oral statements to 5 
minutes. You will see the indicator there. Once you see that 
yellow light, just kind of bring the flight in for a safe 
landing and wrap that up by the time the 5 minutes conclude. 
So, all your statements will be included in the record.
    And so, we will begin with Ms. Wilhelm. You may begin when 
you are ready.

  STATEMENT OF CONNIE WILHELM, CHIEF EXECUTIVE OFFICER, HOME 
            BUILDERS ASSOCIATION OF CENTRAL ARIZONA

    Ms. WILHELM. Chairman Smith, Ranking Member Davis, and 
Members of the Subcommittee, it is an honor to be with you here 
today to provide a brief overview of a workforce development 
program for ex-offenders during their last couple months of 
incarceration.
    I represent the Home Builders Association of Central 
Arizona. And not unlike other growing markets, the biggest 
obstacle that builders face in satisfying the demand for new 
homes is the labor to build them. So, in early 2016, the 
Association launched a number of initiatives on workforce 
development, including a partnership with the Arizona 
Department of Corrections.
    The key to our partnership with Corrections is that it is 
employer-centric. We initially traveled throughout the State 
holding hiring fairs at prisons with companies representing 
residential plumbing, electrical, masonry, framing, and drywall 
trades, seeking inmates releasing into the Phoenix market. 
Participating employers were required to have paid training 
programs and be willing to work with this population's unique 
challenges of parole, drug tests, and transportation.
    In March of 2017, as part of a statewide effort to reduce 
recidivism, Governor Ducey established three Second Chance 
Centers within the correctional facilities for those inmates 
releasing in 60 days who had a moderate to high probability of 
recidivating.
    This collaboration between the Arizona Department of 
Corrections and the Department of Economic Security consists of 
a 10-week training program to prepare and equip inmates with 
the career and life skills they need to succeed after release. 
Since studies have shown that employment is the most direct 
link to reducing recidivism, job fairs and connecting with 
employers is a huge part of this effort.
    At our first construction job fair at the Second Chance 
Center outside Phoenix, we found that many inmates had 
construction experience and others were eager to learn a 
construction trade. Shortly thereafter, we piloted training for 
two trades, electrical and painting, at the Center.
    The Lewis Second Chance Center is currently expanding for 
100 to 275 inmates, and we are expanding our career training 
offerings from two trades to six trades at this center. We will 
now offer training in electrical, drywall, framing, door and 
trim, masonry, and plumbing. Our employers provide the 
trainers, curriculum, material, and tools for their specific 
trade.
    Two of the three instructors for the electrical class were 
former felons, which provided real-life examples of success for 
the inmates.
    While 6 to 8 weeks of training is not a lot, it's enough to 
familiarize the inmate with the trade, learn how to work 
safely, and to establish a relationship with the potential 
employer. Additional training is provided once they are 
released and employed.
    Participating inmates also have the opportunity to earn an 
OSHA 10-hour card.
    Working with this population, however, has not been without 
its challenges. The majority of inmates are released to a 
halfway house and are on parole for up to 6 months, so it is a 
major challenge to find employers that are willing to take a 
chance on an ex-offender. We have had several employers join 
our program only to leave after one bad incident with a former 
offender.
    We have also had employers tell us they don't want the 
liability of hiring felons. To address that concern, last week, 
Governor Ducey signed a bill we initiated which helps protect 
employers from liability solely for hiring an ex-offender.
    Without question, the biggest challenge ex-offenders face 
in the Phoenix metro area when trying to get a job is 
transportation. Many have suspended driver's licenses because 
of civil court fines or penalties.
    To overcome that obstacle, we worked with the courts to 
pursue legislation to allow for a restricted driver's license 
that allows them to drive to work, to meet their parole 
officers, and to seek medical care. This bill was also signed 
into law last week.
    Since we started our recruitment and job training programs, 
our employers have hired over 300 ex-offenders and we expect 
that number to increase significantly with our additional 
onsite training.
    During the 5 months of piloted training, 80 inmates 
completed training and approximately 40 percent of them were 
hired by the companies who trained them.
    Since last March, over 817 individuals have graduated from 
a Second Chance Center and 54 percent of them have successfully 
gained employment upon release.
    Additionally, Arizona has seen a 10 percent drop in 
released inmates going back to prison on a technical violation 
and is experiencing the largest drop in the number of inmates 
in prisons since 1974.
    We are excited about the future of this partnership and the 
opportunity to offer careers in construction to ex-offenders.
    [The prepared statement of Ms. Wilhelm follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Great timing.
    I understand Mr. Thomas and Mr. Potaczek will be splitting 
their time, so begin when you are ready.

             STATEMENT OF TOBY THOMAS, PRESIDENT, 
                 AUSTIN ELECTRIC SERVICES, LLC

    Mr. THOMAS. Mr. Chairman, Ranking Member Davis, Members of 
the Subcommittee, thank you for your invitation to speak here 
today about the workforce development and our work with the 
Home Builders Association of Central Arizona and the Arizona 
Department of Corrections.
    As the housing market began to recover, we quickly 
identified that we had a labor shortage. As production demands 
increased, so too did the shortage of qualified workers.
    To grow our business and capitalize on the increase in 
demand, we began an in-house training program to teach people 
who want a new career to wire new homes.
    In rolling out our training program, we found the single 
biggest challenge was attracting individuals who wanted to 
learn a new skill. After an exhausting 6-month recruitment 
effort, we simply could not find enough people with an interest 
in construction to grow our workforce in the numbers that we 
needed.
    In early 2016, we contracted with Connie Wilhelm and the 
Home Builders Association. Prior to our introduction, Ms. 
Wilhelm had been working on several solutions to address the 
labor shortage. One of her initiatives was to work with the 
Arizona Department of Corrections.
    Over the next several months, we participated in job fairs 
at prisons across Arizona. Through these job fairs, we were 
excited to learn that there's an eager population willing and 
ready to learn a new trade.
    Through our partnership with the Home Builders Association 
and Department of Corrections, for the past 10 months, we have 
operated a 60-day training program at the Lewis Prison outside 
of Phoenix.
    During this training, we teach wiring, blueprint reading, 
and other applicable skills. In addition, we teach conflict 
resolution lessons to improve character building abilities that 
will not only enhance them in the workforce, but in their 
personal lives and the community as well.
    Today, we have trained and hired 86 former offenders from 
our training program and have about an 80 percent retention 
rate.
    Although we have had immense success with the program, we 
have had some challenges. The most glaring are transportation, 
housing, and proper attire. These challenges can have a direct 
effect on an individual's ability to succeed on the job.
    Then there are the psychological aspects. While trainees 
are in the program, we have their undivided attention. Once 
they are released, there are outside influences that could have 
negative impacts both professionally and personally.
    Fortunately, this has been the exception to our program and 
has led to the workforce expansion that we planned for. More 
importantly, the program has exceeded all of my expectations 
with the impact it has had on individual lives and the 
community at large. We are excited to continue the program and 
grow our company.
    [The prepared statement of Mr. Thomas follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           STATEMENT OF BRIAN POTACZEK, ELECTRICIAN, 
                 AUSTIN ELECTRIC SERVICES, LLC

    Mr. POTACZEK. Thank you, Chairman Smith, and all Members of 
this Committee for allowing me to speak to you today about 
programs such as Sunrise Employment Center in Arizona 
Department of Corrections.
    My name is Brian Potaczek and I would like to share the 
impact this program has had on my life and how it has made me a 
part of society and helped me regain my family and friends back 
into my life.
    Before completing this program, I can truthfully say that I 
had no positive direction in life, along with no sense of hope 
that I could make things better. I never was a drug user. 
However, when I was 19, I had all four of my wisdom teeth 
pulled and was prescribed opioids for pain. The next thing I 
knew, I was hooked.
    Being an avid drug user of prescription pills for 6 years, 
I slowly but surely had seen my life declining before my eyes. 
I ended up losing everything I owned and loved and ended up 
incarcerated for 6 years due to the desire to do whatever it 
took to keep getting high.
    After another two prison stints because of my addiction, I 
finally came across a program that I desired and wanted more 
than anything to complete and that was the Sunrise Employment 
Center in Arizona Department of Corrections.
    Many companies came to this Employment Center, but one that 
truly had me fascinated was Austin Electric. After listening to 
the guests speak about the criteria and requirements, I quickly 
signed up for the training program and never looked back.
    One thing that caught my attention was how they would talk 
about the company as a family, and how they would help us out 
and do whatever it took to make us successful.
    In the training program, I learned the tools and knowledge 
of how to be an electrician, which is something I had never 
done before and never imagined doing.
    Upon my release, I was hired and started work that week. I 
was given rides to and from work and maintained a job with this 
company. I started with Austin at $13 an hour and now I'm 
making $22 an hour after 7 short months.
    I can truthfully say from firsthand experience that this 
program has made many success stories and only will continue to 
make more. It instills a sense of hope in the lost, a family 
for those who need one, and the motivation to be a better 
person of society.
    It is amazing when you can work with others in the program 
and slowly but surely see their life changing. That is 
something that always encourages me to stay on the right track.
    I never really had goals after being released from prison 
until I entered the program. Since then, I have rebuilt my 
trust with my family and friends and have regained their love 
and encouragement.
    Not only have I obtained employment with Austin Electric 
upon my release, I have also been able to support myself and 
not become another statistic by going back to prison. I am 
doing things now that I never thought I would, like going to 
have coffee with my mom, buying Girl Scout cookies, or just 
giving back to the community.
    Staying out of prison has been the best success story of my 
life. And every day I wake up, it is a success, and I measure 
it by that. Every day I am out of prison is something I look 
forward to. Thank you.
    [The prepared statement of Mr. Potaczek follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Thank you very much. A very compelling 
story. Thank you.
    Ms. Tessitore.

 STATEMENT OF KELLY TESSITORE, VICE PRESIDENT OF ADVANCEMENT, 
                   JEWISH VOCATIONAL SERVICE

    Ms. TESSITORE. Good afternoon, Chairman Smith, Ranking 
Member Davis, and Members of the Subcommittee. I am Kelly 
Tessitore and I am the Vice President of Advancement at Jewish 
Vocational Service in Boston, which is a nonprofit, community-
based organization in workforce development.
    I began my career at JVS in 1996, the same year as the 1996 
welfare reform. And since then, I have designed and operated 
dozens of programs for low-income populations. I would like to 
talk to you today about my experience helping people strengthen 
skills, access jobs, and build careers.
    Last year at JVS, we served 15,000 individuals in our 
skills training, education, and job placement programs, 
including through our one-stop career center.
    Our greatest strength is our deep relationships with 
employers. We placed job candidates with more than 1,200 
employers last year and we worked with 20 more to provide on-
site training to 1,600 incumbent workers.
    Our employer partners tell us they can't find enough 
workers with the skills they need, and in many cases, they are 
facing critical labor shortages. The current low unemployment 
rate is encouraging employers to look at hiring populations 
they haven't considered previously, which is great, but 
employers need skilled workers.
    To provide those workers and because we believe that the 
best way to lift people out of poverty is to equip them with 
in-demand skills, we partner with employers to build training 
programs.
    Let me walk you through one of our programs. Our pharmacy 
technician program includes training on medications and 
anatomy, pharmacy law, hospital basics, customer service, and 
inventory.
    We partner with pharmacy leaders CVS and Walgreens to 
provide an externship to each participant. These externships 
give students real-world experience that helps them adjust to 
work before taking on a full-time job, and they give CVS and 
Walgreens access to a pool of trained applicants that can meet 
their skill needs.
    The 12-week program prepares graduates to take and pass the 
national Pharmacy Technician Certification Exam. We cover the 
exam fees and our graduates pass the certification exam at 
higher rates than the national average.
    Pharmacy technicians earn $31,000-$44,000 on average 
nationally per year. Last year, 8 out of every 10 students 
enrolled in our program were hired. And the pharmacy technician 
program is just the first step on a career pathway, including 
pharmacy or nursing school, specialized certifications, or even 
store management.
    Although Pharm Tech and other career pathway programs at 
JVS are highly effective at moving people out of poverty, they 
don't serve many TANF recipients. On average, fewer than 10 
percent of participants in our programs are on TANF.
    We have an excellent relationship with our State TANF 
authority. We have spent a lot of time thinking together about 
why TANF doesn't move people into work and how we could change 
it. I think at the end of the day there are three major issues.
    First, TANF emphasizes job placement and de-emphasizes 
skills, even though we have 20 years of research showing that 
``work first'' doesn't work. Although employers can't find 
workers with the skills they need to fill their critical labor 
shortages, the structure of TANF restricts education and 
training activities. TANF hasn't been updated in 20 years and 
it hasn't kept up with the way that employers are hiring now, 
and we need changes that will allow and support skills 
acquisition.
    Second, TANF is overly complicated for both clients and 
systems to administer. It counts the wrong things and it 
doesn't focus on work and skill development. TANF has become a 
benefits processing program focused on preventing abuse, rather 
than a transitional catalyst to work.
    In my 22 years of working with low-income populations, I 
can tell you that most of the people I have met do in fact want 
to work, desperately want to work, but they don't want their 
economic situation to worsen when they leave cash assistance. 
Earnings from work affect TANF, which affects childcare, which 
affects housing, which affects food stamps, and the interaction 
of those things makes work risky, instead of the safer choice 
for people on public assistance.
    We have to change the paradigm about how the benefit 
programs interact so that they can work together to launch 
people into economic mobility. I am not talking about growing 
TANF, but once people are on the caseload, we need to keep them 
engaged and continuing on a path to self-sufficiency.
    If we want people to use TANF as a transitional catalyst to 
work, we need to change the rules so that we can incentivize 
work, allow for training and skill development, and make it 
clear to participants how working will affect their future 
benefits.
    Finally, work requirements. I have operated at least a 
dozen programs that feature a work requirement, and in all 
cases, the very real struggle is that compliance becomes the 
primary deliverable and outcomes take a backseat.
    To maximize results, work requirements efforts should one, 
focus on outcomes, like increasing self-sufficiency rather than 
outputs like participation hours; two, focus on labor market 
demand and local employer needs; three, make it easier to align 
adult basic education, job training, post-secondary education, 
and support services like childcare and transportation 
assistance; four, certify programs as compliant with the work 
requirement rather than counting individual participation 
hours; and five, coordinate and recognize reciprocal compliance 
with other programs such as SNAP, WIOA, and Medicaid. Thank 
you.
    [The prepared statement of Ms. Tessitore follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Thank you.
    Ms. Terenzio.

                STATEMENT OF HEATHER TERENZIO, 
         CHIEF EXECUTIVE OFFICER, TECHTONIC GROUP, LLC

    Ms. TERENZIO. Thank you for having me here today to speak 
about a new way to build talent in high-tech fields. I believe 
we have an innovative, low-cost way to get Americans to work in 
high-paying technology jobs without a college degree and 
without acquiring any debt.
    My name is Heather Terenzio. I am the Chief Executive 
Officer and founder of Techtonic Group, a software development 
company based in Boulder, Colorado.
    I have been the Chief Executive Officer of a technology 
company for 15 years. Our company works on writing software 
code for websites and mobile applications. Our clients have 
been everyone from venture-backed start-ups to Fortune 1000 
companies. I have an Ivy League degree and was an engineer, but 
most of what I learned about writing software I learned on the 
job.
    Over the years, I have worked with other Ivy Leaguers, 
college graduates, and people with all different kinds of 
backgrounds. And the one thing that I have learned is that if 
you have a desire and an aptitude for software development you 
can be a great software developer.
    About 4 years ago, I was giving a talk at a vocational 
school in Boulder about careers in software development. And at 
the end of the talk, a young man approached me.
    He said, ``Your company sounds so cool. I have been 
teaching myself to code for 10 years, but I only have a GED, so 
I can't find a job. But I promise if you hired me and gave me a 
chance, you would never regret it.'' And so right then and 
there, I said, ``I will see you on Monday.''
    And we learned that he had grown up in the foster care 
system, that his mother was in jail, and he had bounced around 
a lot as a kid. The one thing that gave him solace was playing 
computer games, and teaching himself how to write code, and 
build his own games.
    He absorbed everything we taught him about building 
software in a production environment and quickly became a 
contributing member of our team.
    About 4 months into his job with us, he walked into my 
office and said, ``Thank you so much for this job. I am so 
grateful to be here. You have changed the course of my life.''
    And I thought, in my 15 years in this industry, nobody had 
ever said that to me. So right then and there, I said, ``Do you 
have any friends? This is a really interesting thing that is 
happening here.''
    It turns out there were a lot of people out there like him. 
We decided to explore further and called our program an 
apprenticeship program, and we did this kind of tongue-in-cheek 
because we were training people using a paired program just 
like a journeyman and his apprentice might in the trades.
    We soon realized that apprenticeship had a Federal 
designation and decided to make it official. We worked closely 
with the Department of Labor to modify the application process 
to relevant companies like us and we became an official 
apprenticeship with the Department of Labor.
    We were the first software apprenticeship in the United 
States. We are still the only one in Colorado and we are still 
only one of a handful in the whole United States.
    For our class now, we have formalized our selection process 
and our training. For our last class, we had 500 applications 
for 10 spots. We have now had over 50 apprentices come through 
our program.
    We now offer a service to our clients where they can hire 
us to build their software, and at the end of our engagement, 
they can hire in those apprentices as their own. It is a win 
for everyone. Our clients get their software written with a 
senior team while we train apprentices. Our apprentices work on 
real-world projects while working toward a career in software 
development. Our clients can acquire our team of fully-trained 
and diverse talent as their own full-time employees.
    We have had apprentices come through our program who are 
now working for companies like Lockheed Martin, IBM, Zayo, and 
Pivotal Labs.
    Our program is able to attract a more diverse talent pool 
than a software boot camp or a college because we partner with 
our local government and foundations to pay our apprentices a 
salary while they are actually in our program. We are currently 
75 percent women, minorities, and veterans, and they are paid a 
livable wage throughout the entire program.
    We recently closed on a Series A round with a likeminded 
venture fund and we have plans to grow aggressively this 
program in the next couple of years.
    Software development developers are in high demand. 
Unemployment rates for software developers are under 2 percent. 
A college degree is not required to be a great software 
developer. We strongly believe that programs like our 
apprenticeship are a cost-effective, no debt pathway to a high-
paying, middle-class job in a desirable field with unlimited 
career potential.
    Thank you for your time and attention here today.
    [The prepared statement of Ms. Terenzio follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Thank you. Great perspectives. It is 
exciting to hear success stories, inspiring, in fact, from 
different perspectives, so I am very grateful.
    Mr. Potaczek, again, thank you for being here and sharing 
your personal story and being open to providing all of us up 
here with a better understanding of the challenges and 
opportunities facing individuals transitioning back into the 
labor force.
    One of our Committee's priorities is to ensure that Federal 
programs are providing the right incentives and supportive 
services to help folks escape poverty and move up the economic 
ladder. Can you speak a little more about the transition back 
into the labor force and perhaps even some of the concerns you 
had upon or during that return to the workforce?
    Mr. POTACZEK. Transitioning back into society and working, 
it is a difficult challenge; transportation, you know, boots 
for the job, tools. With this program, it has kind of given me 
a head start at that. They gave me transportation. They gave us 
work clothes like shirts. The tools, they gave us the tools to 
get started.
    So instead of getting out of incarceration with a lot of 
things on my mind, I knew that if I just did the right steps, 
by the time I got out, if I called them and asked to get hired, 
I would be hired, and I would have a jumpstart on things.
    And one of the things that always got me, the times I got 
out and went back, was I had so much on my plate I felt like it 
was hard for me to stay focused. When you are working, and you 
are--they give you the tools and whatever you need to work, it 
was a lot easier for me to stay out there and be part of 
society with working.
    And I noticed that I was working so hard that I didn't have 
time to want to do anything else. I would go home, and I would 
sleep, and I would get up and go to work.
    And then I noticed that my money started going to good 
things. It started going to society, it started going to my 
family, clothing, tools.
    I mean, that is all part of living nowadays. It is not--my 
time, assets, it was all going to positive things and I have 
never been able to say that my whole life.
    Chairman SMITH. Very good. And can you say again, you were 
released and then you, the next day, was it, that you reported 
for work?
    Mr. POTACZEK. I was released, I think, on a Friday and the 
weekend was--or maybe it was a Monday. I was released on 
Monday, and I called up Austin Electric, and I was employed at 
my interview the next Monday and started work.
    And that is another thing. I have gotten out before and I 
have called, I went and applied to 20, 30 places, I mean, fast 
food, every place you can think of. I never got one call back 
and it really kind of left me in distraught. It messed with my 
mind a little bit.
    And I am afraid of failure and I tend to shut down as a 
human when I see failure, so this program has given me a sense 
of hope. It has given me a family that I didn't have at the 
time, friends, motivation, inspiration, and success.
    And I am sitting here today, I thought I would never be 
here. I mean, you could tell me 8 years ago you are going to be 
sitting in that chair and I would tell you absolutely not.
    And the thing about it is the knowledge, you have to want 
it. That is the thing. An individual has to want to do the 
right thing, to be better, to learn more.
    It is on both ends. It is not on, you know, just my end or 
their end. Working together, and putting something positive 
into something, and making it grow has done a lot for me.
    Chairman SMITH. Very good.
    Mr. Thomas, would you care to add anything in terms of 
maybe the training that took place and how you kind of 
envisioned being able to use the skills that were required?
    Mr. THOMAS. Sure. So, when we started the program when we 
actually connected with Connie, you know, the first phase of 
the program was we would go to various Arizona prisons. And the 
biggest challenge we had in doing that was most of the inmates 
that were interested that would come to our table and show 
interest in our trade weren't getting released until 2021 or 
2022. And, unfortunately, the problem that we have, the 
shortage of manpower that we have, it is effective today. It is 
not a tomorrow problem, it is a today problem.
    So, we looked at it and said, well, you know, what would be 
really ideal would be to actually have a training program while 
they are incarcerated. So, we started the program and it has 
been very successful.
    You know, at the end of the day, the only requirement we 
have is that they have to have the desire to want to learn and 
the ability to show up and put their best foot forward each and 
every day.
    Chairman SMITH. Very good. Thank you again for your 
perspectives.
    And in the interest of time, I will now recognize the 
Ranking Member, Dr. Davis, for 5 minutes for questions he might 
have.
    Mr. DAVIS. Thank you very much, Mr. Chairman. And I must 
tell you that this is one of the most pleasant hearings that I 
have ever participated in, and one of the reasons is that I 
have personally spent a great deal of time working with 
programs like these and to see the kind of success that you 
have experienced just reinforces my belief that there is much 
more success to be had.
    So, I commend all of you, I thank all of you, and I just 
know that if we can put into the programs themselves what is 
needed for people to experience the kind of successes that you 
have had, and especially when we talk about individuals who 
have been incarcerated, who have prison records.
    Mr. Potaczek, do you still have what is called a record, or 
have you been able to have anything done with that?
    Mr. POTACZEK. I am still--I have completed parole and I 
still have a record. I think I will for a while until I can, I 
guess I don't really know the process to get it dropped. That 
has always, I mean, even getting housing or something, it has 
always had an effect on me having a record, they can look that 
up.
    Mr. DAVIS. Ms. Wilhelm, let me ask you, is there much 
opportunity that you would expect him to be able to get his 
record expunged or get executive clemency or anything where he 
will not have a record?
    Ms. WILHELM. That is one of the things we are looking at 
right now. We keep trying to remove these obstacles for them as 
they get out and get released. We have not really looked into 
that. I know that there are other people in the social justice 
area that have looked at that type of thing and we will 
continue to try to work with them. I think that is a major 
obstacle that we need to take a serious look at.
    Mr. DAVIS. Thank you. Ms. Tessitore, you mentioned that 
work requirements make programs focus on compliance sometimes 
instead of work. Could you elaborate a little bit on that?
    Ms. TESSITORE. Sure. For TANF, we have to complete a 
monthly form for each person showing the hours attended on each 
day. A better system would be to ask us--``during this month, 
was this client active in your program?'' And we could say yes 
instead of spending hours and hours combing through all of our 
attendance records to compile those.
    For ABAWDS who are receiving SNAP, their standard is 80 
hours a month and they actually have a restriction on how many 
hours they can spend in job search versus an education and 
training component, so we have to count up their hours that are 
job search and their hours that are education and training.
    We pull information from four sources, from our One-Stop 
database for workshops they have attended, from our client 
database for meetings we have had with them and other 
activities, from CRI which is the software they can log into 
that has a unique user ID and records their time spent doing 
Career Ready 101, and for their self-certification of the small 
job search portion.
    We compile all of that and then those records must be 
transmitted securely to the TANF authority, which is not a 
simple matter either. There are multiple steps on how you 
safeguard people's personally-identifiable information and 
transmit securely.
    Mr. DAVIS. Thank you. Ms. Wilhelm, can I ask you, where do 
you get your funding? Who funds your program?
    Ms. WILHELM. The individual employers provide and pay for 
the trainers, the curriculum, the tools for the program, and 
our association which is a trade association funded by builders 
and trades is paying for all of the equipment that is out 
there.
    Mr. DAVIS. I will tell you, your stock just went up another 
notch.
    [Laughter.]
    Ms. WILHELM. Thank you. I appreciate that.
    Mr. DAVIS. Ms. Terenzio, let me ask you the last question. 
The work is technical that you train people for. How is it 
received in terms of them being able to get jobs?
    Ms. TERENZIO. Well, once they get into our program, as long 
as they successfully complete the initial class we put them 
through, we will hire them as a full-time employee with us. And 
then once they are with us, we will put them on a client 
project and the client also has the option to hire them as a 
full-time employee from our program. So, it is actually kind of 
you get to work with the person before you actually have to 
commit to hiring them, so it is almost guaranteed.
    Mr. DAVIS. Thank you very much, Mr. Chairman. I yield back.
    Chairman SMITH. Thank you.
    Ms. Walorski.
    Ms. WALORSKI. Thank you, Mr. Chairman.
    Mr. Potaczek, thank you so much for coming. You did a great 
job.
    Ms. Terenzio, you say in your testimony you have been 
successful in taking people that don't have degrees and 
teaching them to be software developers.
    The Subcommittee held a hearing last year examining the 1 
in 7 16- to 24-year-olds that are neither in school nor 
working. We heard stories from groups that help these young 
people train for, find, and keep jobs and we heard firsthand 
from one bright young lady who had been through one of these 
programs.
    One takeaway from that hearing for me was that sometimes we 
put too much pressure on kids to go to a 4-year university 
right out of high school whether they are ready or not, and 
worse, we imply that anything less is failure. This mindset 
does more harm than good. The pressure we keep on these kids 
can lead to failure because they get discouraged, throw up 
their hands, and say, ``I am not smart enough. I am not going 
to do this, and it is over.'' Maybe they needed a few years of 
community college, maybe they needed a 4-year degree, maybe 
apprenticeships and trade schools were a better route. Whatever 
the case, the discouragement leads to discouragement.
    I also took away from that the power of human connection, 
and if someone comes alongside that person, that disengaged 
person, coaches them, believes in them, all that doubt washes 
away and they can be successful.
    So first, I want to applaud you for working to bring people 
into an industry that, from the outside looking in, probably 
looks like an unclimbable mountain for somebody without a 
degree.
    I want to ask you, what are the untapped talent pools that 
you look at? How do you engage them? For our most disadvantaged 
and disengaged people in the shadows, do you think there is 
hope to be able to connect them to apprenticeships like yours 
and these other talent pipelines to reconnect to the workforce 
so they can build a better life for themselves and their 
families?
    Ms. TERENZIO. Thank you. So, the beauty about software 
development is that if you are a great software developer, once 
you are in this industry, nobody really cares where you went to 
school and what your background is. And our office in Boulder 
is actually, was across the parking lot from the Google office.
    And we have a theory that people who come to our office 
feel supported, see people all around them who came from the 
jail system or the foster system, all different kinds of 
backgrounds, and they are succeeding with us. And so, it is 
very much a culture of if they can make it, so can I. And so, I 
think it gives people that kind of motivation to know that 
other people with different kinds of backgrounds can also make 
it in this kind of career.
    And the word in our program has gotten out very quickly. We 
work really closely with our workforce centers, with 
nonprofits, with foundations all within Colorado. And every 
time we even just open up on our social media that we have a 
new class starting, we instantly get 500 applications.
    Ms. WALORSKI. And pardon me for the interruption, but do 
you immediately connect them? So, when they come on your 
program and they may come from that shaky kind of a past where 
they may not have a whole lot of confidence or feel like they 
have failed something for no reason, do you connect them with 
the human interaction then? Is there somebody that is 
absolutely connected to keep making sure that they are moving 
forward?
    Ms. TERENZIO. Yeah. We do have a mentor system within our 
company so that you are paired up with people. And, actually, 
you are paired up with somebody who was just an apprentice a 
year before you, so they know where you came from, they have a 
really close firsthand knowledge of where they were just about 
a year ago and that person is actually responsible for training 
them on what they have just learned and getting them integrated 
into our company.
    And we are a for-profit company, so we are pretty motivated 
to get people integrated and productive as fast as possible. 
And so, we are putting them on projects, we are exposing them 
to clients, we are exposing them to work going on within our 
company, we are trying them out on different kinds of projects 
because we want them to be working and we want them to be 
effective really quickly within our company.
    But, again, I think it is more the culture that we have 
created of achievement and that everybody from every kind of 
background can make it with us.
    Ms. WALORSKI. Interesting. Thank you.
    Mr. Potaczek, you mentioned something that struck me 
because I really believe this, and you are a glowing example. 
But can you just speak for a couple seconds on, you talked 
about the employer, the electrical company that you work for 
was like a family, and what struck you when you--because you 
said, you know, you were out for a week, you looked at fast 
food and all those other places, but when you engaged with 
these folks, what struck you about that? I mean, did you really 
see that, ``Oh, my gosh, I am actually going to work for the 
person''? Just, do you have any thoughts on that?
    Mr. POTACZEK. Absolutely. When they came and visited us, 
and they got to talk and speak about what the requirements were 
and what they were looking for, they said that they instill a 
sense of family in people and I have had nothing but a family 
orientation with this company. And I am not saying that all 
companies will bring that. I hope they do, you know. I can't 
say that.
    They have supplied me with the tools, I didn't have to 
worry about the tools. I am getting picked up for work. I mean, 
I have never had a company that would do that for me.
    Ms. WALORSKI. Did you feel like on days that maybe, you 
know, you had questions or whatever, there was a person you 
could connect to that was not going to give up on you?
    Mr. POTACZEK. All the time.
    Ms. WALORSKI. That is awesome.
    Mr. POTACZEK. I have been able to call anyone for help.
    Ms. WALORSKI. That is awesome. Thank you so much. Thanks to 
the panel. And I yield back, Mr. Chairman. Thank you.
    Chairman SMITH. Thank you.
    Ms. Chu.
    Ms. CHU. Thank you.
    Ms. Tessitore, thank you for joining us to speak about your 
successful workforce development program, but I was shocked 
when you said that less than 10 percent of your participants 
are on TANF. Many of the programs that have been discussed 
today provide great opportunities for individuals if they have 
stability already in other parts of their lives, but what if 
they don't? Individuals need to have support such as childcare, 
housing, and transportation in order to come to work and to 
carry out their duties and that can be difficult.
    Say, for instance, in my home of Los Angeles county, the 
average cost annually of childcare for an infant at a family 
childcare home is $9,186 and it is $8,579 for preschoolers. The 
average single-family household cost to rent is expected to hit 
$1,416 a month, which is an 8 percent increase from last year 
and could only increase I think. At the same time, TANF has not 
been indexed for inflation, making it increasingly more 
difficult for low-income people to meet their basic needs.
    So how does your program work with others in the community 
or utilize government resources to ensure that the basic needs 
of your participants are met while they pursue training and how 
could TANF be changed to be more effective in this regard?
    Ms. TESSITORE. So, thank you for your question. Honestly, 
programs don't work well to move people off of TANF, resources 
need to be aligned. In order to move off of TANF, and to move 
successfully into work, people need some understanding of what 
benefits and supports will be affected when, and how those 
things interact. They need to be able to pay a reduced cost for 
childcare for a period of time, and a reduced cost for housing 
for a period of time.
    We have spent a lot of time, with the TANF authority and 
other agencies, thinking about what those risky points are for 
people, what are those points at which multiple things are 
falling away from you, and that work actually doesn't make 
sense for you, and trying to put in place things that would 
help with that.
    I think also incentivizing work would help. Changing the 
way, and this is something that our TANF authority has proposed 
to our State legislature, changing the way, maybe disregarding 
income for the first 6 months or a higher disregard rate for 
earned income than for other income that you are considering in 
the caseload, changing the way assets are considered, looking 
at the grant amounts and aligning for different categories so 
that there's not--you actually get more money if you are not in 
a work participation program, which unfortunately TANF is so 
byzantine that that actually is happening to people. A higher 
benefit amount if you are not work-required is something that 
is happening.
    It really needs to be a thoughtful design so that both the 
participant and the people trying to help the participant can 
predict reasonably what is going to happen to their income and 
their supports as they transition into work, and participants 
do need support for a period of time.
    There have been initiatives like the Secure Jobs Initiative 
in Massachusetts, which is a partnership between housing and 
the TANF authority and philanthropy. It was actually started by 
philanthropy, and then it was picked up by the State 
legislature to bring together all of the services that a family 
needs in order to transition successfully out of all of those 
things and they have done a lot of good work by planning 
together what those steps are going to be for participants.
    Ms. CHU. And can you say more about the assets? You said 
something about an asset should be determined differently.
    Ms. TESSITORE. Yeah. I think that in, some of it may be 
specific to Massachusetts, but every State is doing it somewhat 
differently, the way we, the amount that you disregard for an 
asset. I think it is that a car is exempted, your first car up 
to a certain value, but the second car is also in there. So, 
looking at the asset limits that we allow people to have, they 
are quite low, so if you have a car worth more than $2,500 or 
$5,000, you are over the asset limit and not eligible. I can't 
speak exactly.
    Ms. CHU. And what if your client had healthcare needs? I 
mean, thank goodness we have the Affordable Care Act, but there 
are some of those who are trying to get into the workforce that 
could have healthcare needs and mental healthcare needs. And as 
a psychologist, I am very cognizant of the fact that there 
could be a need for services to treat depression or substance 
abuse. What do you do in that regard?
    Ms. TESSITORE. So, I will say that we are very, very 
fortunate in Massachusetts to have had universal healthcare for 
many years now and we do not see this as a major problem 
because we have universal healthcare. So, people would be maybe 
transitioning from the type of healthcare that they have, but 
they would not be threatened with the loss of healthcare in 
Massachusetts.
    Ms. CHU. And for those who have been addicted? Because I 
think TANF bars individuals from receiving assistance if they 
have a drug conviction.
    Ms. TESSITORE. I can't speak about that. I'm sorry. I don't 
know.
    Ms. CHU. Well, thank you. I yield back.
    Chairman SMITH. Thank you.
    Mr. Schweikert.
    Mr. SCHWEIKERT. Thank you, Mr. Chairman.
    Mr. Thomas, particularly, and maybe this is somewhat unique 
to Arizona in our Phoenix market, but we actually have jobs 
desperately looking for workers. Can you first, and I want to 
walk you around because you will see some of the different 
views sometimes on the Committee when you have an environment 
that desperately wants to give you a job, but why have you had 
such difficulties? Why did you have to move to this level of 
creativity? What is your environment like? Tell me about the 
jobs that are still looking for someone?
    Mr. THOMAS. Well, I think, and I can't remember who alluded 
to it earlier, I think it was Ms. Walorski, we have created 
this environment with this younger generation, you know, that 
without a college degree you have no chance of success in life. 
And so, I think that there's this feeling toward construction, 
for example, or against the skill trades, that it is, you know, 
substandard I guess, if you will.
    And when we started our training program in mid-2015, one 
of the biggest challenges we had was simply finding people who 
were interested in the skill trades. So, for us, you know, 
finding a population, you know, that was more than willing and 
ready to come learn was a great success, right?
    Mr. SCHWEIKERT. If you, tomorrow, could find those willing 
to either go through the training or had the skill set, how 
many positions do you think you have or are still available in 
the Phoenix market?
    Mr. THOMAS. Well, in the Phoenix market, I would say it is 
thousands. For us personally, I mean, we could probably hire 
between another 200 or 300 and still have capacity for more, to 
be honest with you.
    Mr. SCHWEIKERT. In your top end, I don't know if you would 
call them a journeyman or what, but how much can a highly-
skilled, someone that has been in the profession a decade and 
learned their craft, make?
    Mr. THOMAS. So, our top guy last year, a field guy, made 
about $140,000 a year.
    Mr. SCHWEIKERT. Okay. So, there is this really interesting 
thing, you know, if you are willing to sit down and look at 
what we call the U6 data in unemployment, we are still just 
hovering at about what we call a 63 percent labor force 
participation. We still have, as of today's report, 1.8 million 
folks on long-term unemployment and then those who have fallen 
off. And yet, I hear story after story after story from, you 
know, my community that we have thousands of jobs and just need 
people. It is so--this is--I am looking for a solution.
    Mr. THOMAS. Aren't we all?
    [Laughter.]
    Mr. SCHWEIKERT. Yeah. Ms. Wilhelm, Connie, what do you see 
happening with the rest of the homebuilding community in the 
Phoenix market?
    Ms. WILHELM. Well, I am hoping we are going to continue to 
expand our program and hire more ex-offenders. It doesn't help 
to just solve the electrical situation, you know, because we 
are all part of a system and I need framers, you know, I need 
everybody along the way so that we are all building our 
workforce together so that there are no bumps in the road and 
there is nobody that has to be laid off because the other trade 
is not there.
    So, you know, this is a ready and willing population that I 
have seen nowhere else. I have been to a lot of job fairs in a 
lot of different environments and I have never seen the hope 
and the gratitude that has been expressed by the incarcerated. 
And, you know, I tell you, it is an honor to be able to provide 
jobs for them.
    Mr. SCHWEIKERT. Brian, how do we tell your story to others 
that may be in a tough position that there is opportunity and 
hope?
    Mr. POTACZEK. I think you could take me to them and I could 
talk to them and tell them my personal experience.
    [Laughter.]
    Mr. SCHWEIKERT. You are pretty good at this. Hopefully, one 
day you are not planning on running for my job.
    [Laughter.]
    Mr. POTACZEK. I feel that seeing gives a lot of faith. You 
can read a story and not believe it. For others, like I said, I 
would like to go into the prisons one day and tell them my 
success story. And that is with the two other trainers that 
were at the program, they were ex-felons. And to see them and 
hear their success stories really made me want to achieve it, 
and the hope that they have for me and instilled on me, I mean, 
like I said, it is a family-oriented thing.
    Mr. SCHWEIKERT. This is a really uncomfortable question, 
but I grew up in a household where my mother was a substance 
abuse counselor, so you know those sorts of things. What is the 
key to staying sober? Is it the fact that there is work and 
opportunity and is it that hope? What do you think the key is 
for our brothers and sisters out there that have had such a 
tough time?
    Mr. POTACZEK. I love that question. For me, the key to 
staying sober has been working and seeing how much my family 
appreciates what I have done for myself. You have to want it 
for yourself. You have to want to be sober. But to see people 
that I have never met, my family being proud of me and to say 
they are proud of me, it brings me to tears. I have never been 
like that.
    Mr. SCHWEIKERT. Brian, we are all proud of you.
    Thank you, Mr. Chairman.
    Chairman SMITH. Thank you.
    Ms. Sewell.
    Ms. SEWELL. Thank you, Mr. Chairman. And I want to thank 
all of our panelists. This has truly been a very inspirational, 
uplifting panel. When I first became a Member of Congress, my 
top priority was job creation. I grew up in my district and my 
district is in Alabama. It includes Birmingham, and Montgomery, 
and Selma, my hometown, so it is an old civil rights district.
    But the reality is a family of four in my district only 
makes $32,000 and the highest unemployment in the State of 
Alabama is in my district. So being able to figure out ways 
that I can close the skills gap and get people opportunity is 
really, really important. In fact, we have made a commitment to 
do a job fair annually and to move it around my district 
because Birmingham's needs may be different than the rural 
parts of my district's needs. And I have to tell you, every 
time we have had a job fair, it has grown bigger and bigger. 
More jobseekers and more employers are willing to come.
    But so often, the jobs go unfilled, so you get a lot of 
folks who feel a little frustrated because the skills that are 
being looked for these days are more, you know, technical and 
are computer-related. And for someone who has been a displaced 
steel worker, to tell them to go back and learn something new, 
it is hard. It really is hard.
    So, I guess my question--I have two questions. Ms. Wilhelm, 
I actually have a really great homebuilders association in 
Alabama. They are awesome. They have an apprenticeship program. 
But how do I encourage them to branch out and actually take a 
risk and hire felons?
    Ms. WILHELM. Tell them to call me.
    [Laughter.]
    I would be happy to share our experiences with them. And 
that is one of the reasons we wanted to come today because, you 
know, hopefully we can be a model for other areas, and you do 
have to take a chance, and it is worth it.
    Ms. SEWELL. So how did you convince the homebuilders in 
Arizona to do it? I mean, did you guys purposely decide to do a 
second chance?
    Ms. WILHELM. I have been there for a number of years 
working with them. And every board meeting, I would hear, ``We 
need workers, we need workers, we need workers,'' and I was 
running out of options. I had been to refugee relocation 
agencies. I had been to a lot of high schools and everything.
    We were moving, and I ran across a binder where I had 
participated in a task force with corrections. And I remember 
that I had gone and seen some of their construction programs, 
so I just called them up.
    Ms. SEWELL. Did you?
    Ms. WILHELM. And said, ``I would like to see what you are 
doing in the prisons. I would like to bring some of my trades 
out and look at what you are teaching them.''
    Ms. SEWELL. Was there resistance from your trades?
    Ms. WILHELM. I had to talk to them about the opportunity. I 
don't know that I would say there was--there was hesitation, 
certainly. I mean, we are going into a correctional facility, 
you know.
    Ms. SEWELL. But success breeds success, obviously.
    Ms. WILHELM. Yes, yes. But it was definitely worth it. And, 
you know, what is really important is that you have a really 
strong commitment by the employer, and they were all in. I 
mean, they had to have a paid training program, they had to 
understand how it is to work with this population and that the 
challenges are a little different. They had to be able to work 
with us to try to overcome those challenges.
    Ms. SEWELL. What do you think is the biggest barrier as a--
so I am sure you had strict requirements of who can come into 
your program, were some of the requirements barriers in and of 
themselves?
    Ms. WILHELM. From the employers' standpoint?
    Ms. SEWELL. Yes.
    Ms. WILHELM. They had to have a paid training program 
because we were going in and trying to give these women and men 
hope, and a lot of them didn't have the skills but we still 
wanted them in. It was very interesting because as we did our 
hiring fairs, we heard from a lot of them telling me, ``Oh, I 
used to work for so-and-so. Are they still in business?'' So, 
it was very enlightening for us to see that there was a lot of 
skill there that we wanted to capture.
    Ms. SEWELL. Mr. Thomas, so how did your company decide to 
participate in a program and what are the requirements of that 
program? I really want to try to encourage the employers that I 
represent back home to take a risk.
    Mr. THOMAS. Well, and that is what it is. I mean, it 
definitely is an investment.
    Ms. SEWELL. Not a risk but an investment.
    Mr. THOMAS. I mean, and that is the way we--that is the 
approach we took is that it is an investment, you know. We are 
either going to pay today or we are really going to pay 
tomorrow. So, for us, it was really, it was an easy sell. I 
mean, it was, look, it is a great population. They are healthy 
and willing to try this, you know, to try our trade.
    Ms. SEWELL. What is your success rate? I mean, not everyone 
is going to be brought in.
    Mr. THOMAS. We have had about an 80 percent retainage rate, 
which is, by all standards, a fantastic rate.
    Ms. SEWELL. Eighty percent? That is great. Absolutely.
    Well, Brian, you are truly an inspiration and I just want 
to encourage you to tell your story because no one can tell 
your story better than you, but your story speaks to so many 
people's, you know, barriers and their own roadblocks. So best 
of luck in everything.
    Mr. POTACZEK. Thank you, thank you.
    Chairman SMITH. Thank you.
    Mr. LaHood.
    Mr. LAHOOD. Thank you, Mr. Chairman. And I want to thank 
the witnesses for being here today for this important hearing 
and for your testimony.
    In a prior life, I spent 10 years as a State and Federal 
prosecutor. And I am not proud of it, but I sent a lot of 
people to prison and jail, and I know that system very well. 
And I also served in our State legislature in Illinois and was 
very involved with criminal justice reform.
    We have talked a lot about how we find that balance between 
safety of our community, letting people out of prison early, 
getting them back into our communities, but also protecting 
society, and that political balance has been difficult. And, 
frankly, we haven't had much success in doing that at the 
Federal level with criminal justice reform.
    And, you know, in the State of Illinois, our goal with our 
criminal justice reform was to get 25 percent of our current 
State prison population out and figure out how to do that, 
particularly the nonviolent offenders. And, again, everybody 
wants to be tough on crime when you run for office, and so 
finding that balance is important. And so, I am listening to 
your testimony today, and particularly, Brian, your testimony, 
and trying to find that right balance.
    And, Mr. Thomas, I read that I think you have 86 former 
offenders working for you and you have had, as you just 
mentioned to Ms. Sewell, an 80 percent retention rate. And I 
wonder if you have suggestions on that balance between 
protecting our citizenry and safety, but also giving people a 
chance.
    Mr. THOMAS. Sure. So, you know, you had mentioned the 
safety factor. You know, I mean, obviously, we want to protect 
our communities. The best way to protect them is to give them 
purpose. And so many of these inmates that I have had 
interaction with over the last, you know, 18 to 24 months, the 
biggest thing was just the fact that they wanted somebody who 
believed in them.
    Most of the inmates that we have hired, they are not bad 
people. Let me rephrase that. All of them are not bad people. 
They have made some poor choices in life. I think the best way 
to serve them is to give them that belief that they can do it. 
We have also made it a point that, you know, all of our 
managers get in touch with them at least every day to some 
degree.
    So, I think, to answer your question, it is really about 
just giving them purpose. I think, ultimately, it is going to 
create the safety for our communities.
    Mr. LAHOOD. Well, I tend to agree with you. Being wanted or 
having a purpose is a big part of that. I am curious, you 
mentioned that your managers interact with them. Obviously, we 
have a parole system as Brian mentioned earlier. We have lots 
of integration systems. I am curious, do you feel that your 
managers are much more involved in aspects of their life or is 
it just related to what they do workwise?
    Mr. THOMAS. Oh, no, it is absolutely, if they have any 
issue that they are dealing with, whether it is personally or 
professionally, they are there to mentor them really, in 
essence, that is what they are there for.
    I do think it is more effective, just from an employer's 
perspective, in the sense that it is more personable. You know, 
the parole board or the probation officers that they see, you 
know, those are just individuals that are there to do their 
job, to make sure that they are staying in line, whereas our 
managers are more, are there to support them, you know, in 
their personal life as well so there is a significant 
difference.
    And I think that has really, truly been one of the 
successes of this whole program is that it is not just teaching 
them a trade. It is, you know, they are mentoring them. And I 
can tell you, I have had a number of managers come to us and 
just tell us how it has impacted their lives personally as 
well. You know, they feel like they are really doing something 
beyond just for themselves or just for the company.
    Mr. LAHOOD. And it sounds like, from what you are saying, 
in some ways, they are kind of a life coach, right, on some of 
those core decisions that are being made.
    Mr. THOMAS. Exactly made.
    Mr. LAHOOD. So, I am curious on that. I mean, do you give 
them training, your managers, or how do they acquire those 
skills to engage in that?
    Mr. THOMAS. No, I don't give them the skills personally. I 
mean, you know, obviously, it is something that we meet once a 
month and have a discussion around. Some of the managers will 
bring to us, you know, maybe some of the problems that some of 
the particular inmates are having and we kind of all work 
together to come up with a viable solution for them. We have 
had individuals that couldn't find housing, so we stepped up 
and we basically paid for their housing to get them over the 
hump. So, it is a combination of, I think, a lot of different 
things.
    A lot of it is just learning on the fly, you know. A lot of 
these guys are just learning it as they are--because everybody 
is a different case, right? I mean, everybody is an individual, 
so all the problems are individually different too, so----
    Mr. LAHOOD. Well, thank you for what you do, and for trying 
to help your community, and for sharing here today. I 
appreciate it very much.
    Mr. THOMAS. You bet.
    Chairman SMITH. Thank you. That is an amazing background.
    Oh, sorry, one more. My apologies.
    Mr. BISHOP. Wow.
    Chairman SMITH. Mr. Bishop is recognized.
    [Laughter.]
    Mr. BISHOP. I am a low man on the totem pole. I won't be 
long.
    First of all, thank you all for being here today. I am 
grateful, and we are all benefitted by your testimony. In my 
previous life, I was a prosecutor. I have been in and out of 
courts and had some time to spend in the prison system with 
folks, not personally, but in my role as a prosecutor.
    I don't know that there are any services within the prison 
system that will prepare folks, inmates, for leaving. And I am 
wondering, Brian, what would it have been like if you had left 
without this, this transition into this beautiful opportunity 
that you have had?
    Mr. POTACZEK. I had already had results with being released 
and being reincarcerated because I didn't have job stability. I 
mean, for me, that is what it comes down to is job stability 
and everything else comes past that, paying your fines with 
work, clothing, dental, health insurance, not using access, or 
I mean, it is just, it is better. For me with the job 
stability, everything else just kind of fell in place after 
that.
    Mr. BISHOP. That hits close to home for me because I have 
an 18-year-old at home too and he just had wisdom teeth out, 
and he came home with a prescription for an opioid. And I 
didn't, I purposely did not fill it because I just thought it 
was incredibly, let us just say, negligent on the part of the 
doctor for having prescribed it. It was way over prescription, 
as far as I was concerned. But I know what happens all the time 
and this is a message that we need to get out to a lot of 
parents who are in the same situation.
    But I wondered if I might ask the panel, there is a study 
by a Princeton economist, Alan Krueger, and he found that the 
increase in prescribing rates can account for between 20 and 25 
percent of the approximately 5-point drop in labor force 
participation between 1999 and 2015. Is that real?
    This is where the opioid crisis and the job issue interact. 
It is amazing to me that that is indeed an issue and it is that 
big of an issue. So, I don't know, does anybody feel inspired 
to answer that question?
    Ms. WILHELM. I would be happy to talk a little bit about 
our experience. I would say probably 90 plus percentage of the 
people we interact with are incarcerated for some drugs or 
drug-related offenses and it is a huge problem.
    And I think one of the reasons that sometimes they are not 
successful, even after they know they have a job getting out, 
just actually showing up and whatever, is that intervention 
into them going out and starting to use again, so it is a huge 
crisis. And then sometimes they will work for a week, get their 
first paycheck, and they are gone, and they are out buying 
drugs again. So, no, we see it every day, not just in this 
population, but in the workforce certainly.
    Mr. POTACZEK. My experience with it, you know, I got my 
wisdom teeth pulled and I just started doing the pills. I was 
coming from a good family, my mom is supportive, not on drugs, 
came from a good community, and that spiraled me down and I 
lost everything just from that. I lost my job, so I believe in 
it. I believe there is others out there and I believe it is 
affecting our communities really, really bad. And I have seen 
it from firsthand experience and I have had experiences with 
talking to other inmates about the same stories, how it just 
gets out of control.
    Mr. BISHOP. That is incredible testimony. And I have heard 
the same thing, I just didn't know it was at this level, that 
it had had that kind of impact.
    Ms. Terenzio, you have a program that you participate in 
called Skillful. And the Skillful, I think it is the Skillful 
State Network?
    Ms. TERENZIO. Mm-hmm.
    Mr. BISHOP. Can you share with us what that is about? It 
sounds like a very interesting program for States.
    Ms. TERENZIO. Yeah. Skillful's mission is to have employers 
consider employees based on their skills, not necessarily their 
background and degrees. And so, we work with them pretty 
closely as a model of basically what a company can look like if 
you consider people just based on what they can do and not 
necessarily what their pedigree looks like.
    And so, we helped them kind of get the word out. We are a 
case study for them. We support each other, you know, through 
literature and speaking engagements, and so we have worked 
pretty closely with them just in kind of getting the word out 
to other employers about what you can do if you don't just 
consider degrees on every job application.
    Mr. BISHOP. So how many States are you in and how is this 
funded?
    Ms. TERENZIO. Our particular program or Skillful?
    Mr. BISHOP. Skillful.
    Ms. TERENZIO. Skillful is an offshoot of the Markle 
Foundation based out of New York City and they are just 
expanding. But we just, we partner with them. We are not a 
part, we are not actually Skillful, so we are just an 
apprenticeship program through the Department of Labor.
    And we are currently in Colorado, but we are looking, we 
are looking at rural-sourcing kind of jobs, so we are also 
looking at creating opportunity in rural areas where we can use 
our apprenticeship program to train people and maybe instead of 
Silicon Valley or going to India for software development, they 
actually go to rural parts of America to write their software.
    Mr. BISHOP. That's fascinating. Thank you very much.
    Chairman SMITH. Thank you. So, you are saying someone could 
show up with a Nebraska Huskers attire on and still get a job 
in Boulder, Colorado?
    Ms. TERENZIO. Correct.
    [Laughter.]
    Chairman SMITH. Very good, very good. Thank you so much. 
Really, your insight, your perspectives, and these are great 
stories. Thank you again, Brian, for sharing your story and 
thanks to all of you.
    It involves everyone here, the complexities of the system 
that we need to look at, and I think this hearing is 
particularly instructive for us as we try to work together to 
move forward for the betterment of our country through the 
betterment of individuals and some second chances, or third, or 
fourth from time to time as well. So, thank you very much for 
your participation here today. Thanks.
    We will now focus on the second panel of witnesses.
    So, as we are shifting positions here, I will say that, 
unfortunately, one of our witnesses was unable to attend today, 
a Mr. Tony Girifalco, and he is the Executive Vice President of 
the Delaware Valley Industrial Resource Center in Philadelphia, 
Pennsylvania.
    I do ask for unanimous consent that his written statement 
be made a part of the record.
    Without objection, we will do that.
    [The prepared statement of Mr. Girifalco follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. I now recognize Ms. Jenkins for the purpose 
of introducing her constituent from Kansas.
    Ms. JENKINS. Thank you, Mr. Chairman.
    It is my pleasure to introduce Justin Welner from Spirit 
AeroSystems based out of Wichita, Kansas. Spirit AeroSystems 
designs and builds aero structures for both commercial and 
defense customers and is the largest private employer in my 
home State of Kansas.
    Mr. Welner serves as Spirit's Vice President for Human 
Resources and the Environmental Health and Safety Department. 
He has worked for his entire career in the aerospace industry, 
having previously worked for Bomabardier Learjet, where he 
served as Director of Human Resources in addition to holding 
numerous other leadership roles during his nearly 20 years with 
the company.
    Mr. Welner, thank you for being here today. We are looking 
forward to hearing your expertise in this subject area. 
Welcome.
    I yield back, Mr. Chairman.
    Chairman SMITH. Thank you, Ms. Jenkins.
    Dr. Davis for the introduction of your constituent.
    Mr. DAVIS. Thank you very much. And it is my pleasure to 
introduce Mr. Andrew Wells.
    Not only am I pleased to do so because of his expertise and 
knowledge, but he also grew up in the community where I live, 
which is on the west side of Chicago which is known as one of 
the most poverty-stricken areas in the country, an area where 
the riots occurred after the assassination of Dr. King and an 
area that has been called a microcosm of what is wrong with 
urban America, and that has been for many years.
    The Chicago Urban League has been around since the early 
1900s and then intimately engaged in program development that 
is designed to lift the country out of its position of need to 
a position of productivity.
    So, Mr. Wells, thank you so much for being here, and I am 
delighted that the Urban League is doing the work that you do.
    Chairman SMITH. Thank you.
    I would like to recognize Ms. Walorski for the purpose of 
introducing her constituent from Indiana.
    Ms. WALORSKI. Thank you, Mr. Chairman. I have the pleasure 
of introducing Peter Barrett. Peter is the Senior Vice 
President of Marketing and Corporate Development at Smoker 
Craft in New Paris, Indiana.
    Smoker Craft is a multigeneration, family-owned boat 
manufacturer located in my district. Peter has been with the 
company since 1996 and is carrying on the family tradition as 
the fourth-generation owner/employee.
    I love visiting Peter at his company, Smoker Craft, and 
hearing from Peter and his employees, and I am delighted that 
he is with us today to share his insights on the jobs gap.
    Thank you, Mr. Chairman.
    Ms. WILHELM. Thank you.
    Chairman SMITH. And witnesses are reminded to limit their 
oral statements to 5 minutes. All of your written statements 
will be included in the record.
    We will begin with Mr. Welner. You may begin when you are 
ready.

STATEMENT OF JUSTIN WELNER, VICE PRESIDENT FOR HUMAN RESOURCES, 
                       SPIRIT AEROSYSTEMS

    Mr. WELNER. Chairman Smith, Ranking Member Davis, and 
Members of the Ways and Means Committee, thank you for allowing 
me to testify today about the workforce pipeline challenges 
facing our company along with other advanced manufacturing 
businesses across our country.
    Spirit AeroSystems designs and builds large, complex 
aerostructures for both commercial and defense customers. Our 
largest customers include Boeing and Airbus, and in 2016 we 
were named as one of seven suppliers on the B-21 Raider program 
for the Air Force.
    With headquarters in Wichita, Kansas, Spirit operates 
manufacturing sites in Oklahoma, North Carolina, Europe, and 
Asia. Our core products include fuselages, pylons, nacelles, 
and wing components.
    Spirit is the largest private-sector employer in the State 
of Kansas with more than 11,500 employees. Last December, our 
company announced we would be expanding our Wichita operations 
by adding 1,000 new jobs over 2 years and investing $1 billion 
over 5 years in capital projects. This was driven by production 
rate increases on existing programs as well as new programs in 
the areas of defense and fabrication.
    Building a talented workforce from today's labor pool is 
one of the largest challenges our company faces as we hire to 
keep up with natural attrition rates and seek to expand our 
base employment to meet production requirements of our 
customers.
    Before I explain our experience with workforce constraints, 
I want to provide additional context for what we are up 
against.
    At our Wichita site, we employ about 7,500 line-workers. 
These include sheet metal mechanics, assembly mechanics, CNC 
operators, and composite tech who fabricate, build, and 
assemble large metallic and composite aircraft structures.
    At our four U.S. sites, we have hired more than 4,000 
front-line employees since 2015, about 1,000 of those in the 
last 3 months.
    But like many other advanced manufacturers, we are faced 
with an aging workforce. And what keeps me up at night is the 
fact that within 5 years, 40 percent of my entire workforce 
will be retirement-eligible. The enormity of this reality and 
the challenge it poses for us, along with thousands of other 
advanced manufacturers, cannot be overstated. Spirit has been 
hiring as quickly as possible to fill open positions, but we 
are struggling to find qualified workers with the skillsets 
needed in today's aerospace manufacturing environment.
    Three years ago, it was customary for us to hire someone 
and put them through 2 to 3 weeks of training depending on the 
experience level of that new employee. Today, we have retooled 
and expanded our in-house training programs that now last up to 
7 weeks, so when we recruit and hire somebody, it is 7 weeks 
before they hit the shop floor and actually produce any real 
work and it is several additional weeks before they become 
fully productive.
    The challenge we are experiencing is not isolated to a 
State or regional problem. It is a national problem, and we are 
nearing the verge of what could become a watershed moment for 
our country as we determine what we want the future of 
manufacturing to look like in the United States. How we respond 
and our ability to proactively pursue collaborative solutions 
will define our success.
    While I've described some of our industry's obstacles to 
filling open jobs, I want to pivot for a moment and share with 
you some of the solutions we have deployed to help to try to 
overcome those barriers.
    We are investing millions of dollars into an expanded in-
house training program that includes growing our training 
department by 30 people. Their focus is on improving the 
skillsets of the new hires and getting them better prepared to 
be successful on the shop floor.
    We have expanded our recruitment efforts to reach well 
beyond the State border and we are now offering very generous 
relocation packages for experienced hourly employees. While we 
have had some isolated examples of success with this, most 
hourly workers come from two-income families and are well-
rooted in the communities in which they reside.
    In the last few months, we have launched a retiree and 
alumni program where former employees are now hired to come 
back to work as a workplace coach to mentor and guide less 
experienced mechanics as they begin to navigate the 
complexities of the manufacturing environment.
    For several years, Spirit has had an apprenticeship program 
with the International Brotherhood of Electrical Workers, and 
this year, we are launching several additional apprenticeship 
programs with the International Association of Machinists and 
Aerospace Workers.
    In addition, for many years, we have worked cooperatively 
with the technical colleges located near our manufacturing 
facilities to guide and shape curriculum programs that meet the 
needs of our industry. We have intensified that engagement 
based on the tightening of the labor market.
    Last year for the first time, we started a high school 
intern program to bring high school students into the factory 
and introduce them to careers in manufacturing. Based on the 
success of that program, we will be doubling the size of that 
program this year.
    One other strategy that was targeted toward high school 
students that has helped is the Excel in Career Technical 
Education initiative, which is more commonly referred to as 
Kansas Senate Bill 155. That law took effect in 2012 and pays 
for students to obtain technical certifications and credentials 
before they graduate high school. We have hired many students 
through this program.
    But while all of these initiatives are helping address the 
challenge faced by our industry, unfortunately they are not 
yielding nearly enough potential workers. So, I would like to 
conclude by highlighting a few additional opportunities that 
this Committee and Congress could consider to further assist 
aerospace and advanced manufacturing.
    The first thing is for leaders to understand that if our 
country cannot solve the workforce problem and talent pipeline 
issues, our U.S. industrial base will erode because businesses 
will be forced to move work to countries that can satisfy 
production demand. This is not a threat targeted at our elected 
leaders. It is a threat we all face together, given the 
realities of operating in a global economy.
    A second thing for us all to address is the need to better 
promote the dignity of career paths in technical fields such as 
advanced manufacturing. All too often, parents and our 
education system encourage students to seek post-secondary 
education through a 4-year degree, and we ignore career paths 
that require vocational training.
    And finally, I would encourage this Committee and Congress 
to consider options that allow Pell Grants to be used for 
students seeking certifications and credentials in technical 
programs that are less than 16 weeks long. By limiting 
qualifying students from receiving Pell Grants for credentialed 
technical training programs that are under 16 weeks, we create 
an unnecessary barrier for lower-income students to achieve 
success through a career in manufacturing.
    I appreciate being invited to testify on behalf of Spirit 
AeroSystems. This Committee is faced with many challenges of 
national significance. We are grateful for the work you did on 
tax reform and we are grateful you are spending time to further 
explore ways to help the private sector address these workforce 
challenges.
    Thank you for your leadership on these matters. I look 
forward to answering your questions.
    [The prepared statement of Mr. Welner follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Thank you, Mr. Welner.
    Mr. Wells, you are recognized.

  STATEMENT OF ANDREW WELLS, DIRECTOR, WORKFORCE DEVELOPMENT 
                  CENTER, CHICAGO URBAN LEAGUE

    Mr. WELLS. Thank you, Chairman Smith, Ranking Member Davis, 
and Members of the Subcommittee for the opportunity to offer 
testimony here today. My name is Andrew Wells and I am the 
Director of Workforce Development at the Chicago Urban League.
    In my role at the Chicago Urban League, I am tasked with 
the very important job of connecting people to employment 
opportunities, training, and career pathways to high-growth 
sectors. In the 100 years our organization has been in service 
to the African American community, this has been a staple of 
our work.
    Employment is the most essential building block in 
individual and community economic growth. A good job helps to 
alleviate household poverty and a strong job market gets more 
people in a community working and more dollars circulating 
locally and nationally.
    The Chicago Urban League focuses specifically on assisting 
individuals in the highest areas of need, in racially 
concentrated areas of poverty, the areas that have the highest 
unemployment rates in the city, located primarily on the South 
and West sides of Chicago.
    Youth and adults living in racially concentrated areas of 
poverty, however, have a significant number of barriers to 
accessing jobs.
    One, there is a significant employment spatial mismatch. 
Strong central business districts and suburban employment cores 
house many of the best opportunities for workers. In places 
like Chicago, where jobs are located are not where African 
Americans most in need of jobs live.
    Someone who doesn't live near transportation or who lacks a 
car might have a very difficult time getting to work. The 
distance might be too considerable to manage working, child, 
and household obligations.
    The pay may not be adequate to overcome increased costs 
related to commute and child care. All of these barriers 
conspire to reduce a person's ability to both find and keep a 
good job.
    The collateral consequences of criminal records 
significantly impede employment opportunities. We know that 
employment is a critical part of the re-entry process, and yet 
there are barriers at all levels of hiring and promotion 
throughout all industries and sectors.
    Skills, job readiness and training programs need to be more 
abundant. These skills need to be targeted in areas of growth, 
like green and emerging industries.
    The Chicago Urban League strongly encourages more training 
opportunities for youth and adults from the most disadvantaged 
neighborhoods to build on their employability skills. But that 
is not the only answer. We also need to do the following.
    Enact an employment subsidies program that would place 
unemployed individuals in the private sectors, private and 
public sectors, including those with criminal records.
    Expand apprenticeships, summer and employment opportunity 
programs for youth.
    Increase workforce training opportunities for African 
American adults and match them with employment through public 
and private partnerships.
    Reduce the collateral consequences of a criminal record and 
barriers to employment through sound criminal justice reforms.
    Create or expand transportation subsidies to ensure that 
workers can get to their places of employment.
    Create small business incubators in racially concentrated 
areas of poverty to bring local, accessible jobs to these 
disinvested communities.
    Last, but not least, ensure equity in public education. 
Illinois has the worst disparities for funding in the Nation 
when it comes to equity for low-income minority students. 
Providing youth with good quality education will go a long way 
toward improving access to jobs, to quality jobs by preparing 
youth to get jobs.
    I know that this will not be easy. I know this takes 
political and community will to accomplish. But we all know how 
critical increasing employment opportunities are to our 
neighborhoods and to cities across the country.
    Expanding these opportunities will not only increase 
employment in our most under-resourced communities, but also 
reduce crime, decrease household poverty, increase home 
ownership, and build community wealth.
    We cannot continue to accept that, in great cities like 
Chicago, the highest unemployment rate for people of color in 
the Nation is the norm. We must do what is right to ensure 
equal access to opportunity for all American citizens. Thank 
you.
    I would like to just share this one thing. We operated a 
transportation construction apprenticeship highway program for 
about 3 years. We trained 598 individuals in this, in this 
program, most of whom were ex-offenders or came from 
disadvantaged neighborhoods. I want to share this one success 
story because this is why I keep doing the work that I do.
    There was a young lady, and I will call her Ms. Dewberry, 
who was a single mother with three children. Literally, she was 
making decisions at the gas pump on whether to put gas in her 
car or to put food on the table. At the time that she applied 
to the Chicago Urban League, she worked at Monterrey Security 
making $11.54 an hour. Now, mind you, she has three kids.
    So, I did her interview when she enrolled in the program 
and I asked her, I said, ``Well, you already have a job.'' I 
said, ``Why are you enrolling in a program?'' She said, ``Well, 
Mr. Wells,'' she said, ``I can't continue.'' She said, ``I 
don't know what to do.'' She said, ``Every night, I am crying. 
I can't take care of my kids off of $11.54 an hour.''
    Well, I enrolled her in the program and she ended up 
becoming the best laborer, the best apprentice at the Chicago 
Urban League. And right now, this young lady is making $37.50 
an hour and it changed her life.
    Not only did it change her life, but it changed the lives 
of so many other people who came through our doors. If you have 
quality training programs that can provide real skills that 
employers can use, it works. So, I just want to leave you with 
that.
    [The prepared statement of Mr. Wells follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Thank you. Thank you, Mr. Wells.
    Mr. Barrett.

 STATEMENT OF PETER BARRETT, SENIOR VICE PRESIDENT, MARKETING 
     AND CORPORATE DEVELOPMENT, SMOKER CRAFT, INCORPORATED

    Mr. BARRETT. Good afternoon. Thank you, Chairman Smith, 
Ranking Member Davis, and Members of the Subcommittee, for the 
opportunity to appear before you today to discuss an issue 
important to my business and the recreational boating industry, 
workforce development. My name is Peter Barrett. I am proud to 
represent Smoker Craft, Incorporated, a boat manufacturer 
located in New Paris, Indiana.
    Founded in 1903, we are a fourth-generation family-owned 
and operated business that builds pontoon boats, fiberglass 
boats, aluminum fishing boats under the brand names Smoker 
Craft, Starcraft, Sunchaser, and Sylvan. Last year, Smoker 
Craft built and distributed over 11,000 boats to our worldwide 
dealer network. Our company employs over 690 people at our two 
manufacturing and transportation locations.
    The recreational boating industry is an important driver of 
the U.S. economy, with an annual economic impact of more than 
$121.5 billion. Our industry is uniquely American. Our industry 
is a uniquely American-made product. Ninety-five percent of 
boats sold in the United States are made in the United States. 
Behind a fun day on the water with family and friends are 
American businesses and manufacturing jobs.
    Our manufacturing is unique to the boat business and 
employees must have a broad range of skills. Our highly-skilled 
employees must weld, rivet, and fiberglass laminate. Less-
skilled workers need the skills to read a tape measure, utilize 
simple power tools, and follow basic instructions. Our jobs do 
not require a 4-year degree. They pay well and have great 
benefits. A solid employee can quickly move up and establish a 
career in our organization.
    The boating industry is strong and many of our 300-plus 
dealers report that 2017 was their best year ever. Many dealers 
have indicated that they could sell more product if we could 
meet the demand. We have plenty of work. Today, our backlog is 
20 percent larger than last year. Unfortunately, we will be 
challenged to meet this demand and will struggle to continue to 
grow if we cannot find skilled employees.
    Our current employment situation is troubling, and the 
future looks even worse. We are located in a region with lower 
unemployment and higher job opening rates than the rest of the 
country. With an aging workforce and a small pool of qualified 
workers to recruit from, we are concerned with the future 
prospect of finding skilled workers, a critical component for 
our growth as a business.
    Last month, we thanked an employee named Frank Perales for 
50 years of service on our aluminum riveted line. Frank is 
dedicated to our company and an excellent boat builder. His 
ability to quickly solve problems, coupled with a strong work 
ethic, have made him a model employee. As we presented his 
gift, he said he would like to retire in a year or two.
    Unfortunately, replacing someone like Frank might require 
two people to achieve the same level of production. If we could 
find the right person, Frank should be mentoring his 
replacement right now.
    Beyond the production line, a similar issue impacts our 
transportation division. Our drivers haul boats around the 
country and into Canada. The long days and nights on the road 
coupled with unloading boats upon arrival is exhausting for our 
older drivers. Many of our senior drivers face further 
challenges in adapting to the use of electronic log books and 
have changed jobs or retired simply to avoid learning new 
technical skills. Replacing these drivers is difficult as 
younger people show little interest in this career path and we 
need our boats delivered.
    The future challenge we see is attracting and training the 
younger employee for our workplace. Our area, once known for 
its strong family farm work ethic, is struggling to find young 
people with the grit and desire to participate in American 
manufacturing.
    Very well-designed skills training programs have been tried 
through our local community college but have failed as 
employers can't wait for live bodies, trained or untrained. As 
participation in these programs dwindled, funding was frozen.
    The concept of workforce training programs is vital to 
bridging the jobs gap we are facing today and in the future. 
Simply put, we need skilled workers. Our industry needs 
welders, riveters, assembly people, and truck drivers. Shop 
classes need to return, and exposure to careers in 
manufacturing through internships and apprenticeships should be 
encouraged. Careers in the trades need to be recognized and 
glorified. Our workforce is the backbone of this country. We 
need to support the expansion of career and technical education 
or CTE, just as we support 4-year and graduate education.
    I am pleased to see Congress taking steps in the recently 
passed Appropriations legislation to support the Department of 
Labor and Department of Education programs that promote access, 
completion, and affordability of workforce training efforts. 
The funding and support is crucial to States and localities 
trying to meet the needs of employers such as Smoker Craft, 
Incorporated.
    Thank you again for the opportunity to appear before you 
today. I look forward to answering your questions.
    [The prepared statement of Mr. Barrett follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. Thank you, Mr. Barrett, and thank you to 
our entire panel. It is, again, great to hear your perspective, 
your expertise as well.
    We know that there is oftentimes the challenge of, you 
know, we know that folks need a job and want to work, there are 
openings out there, and bringing everyone together is 
oftentimes more difficult than one would think.
    America is a big country, too. And geographically, there 
can be some distances that are problematic or a challenge, even 
in the city. And transportation can be a challenge with a 
worker getting to a job site.
    I am proud to say Nebraska, I think, has done fairly well 
in terms of advancing these causes. I am glad that Forbes 
recently has ranked Nebraska the fourth best place to do 
business, but I know that I still hear from many employers who 
face the challenge of job openings that remain unfilled.
    And so, we know, as Mr. Wells already indicated, that some 
community partnerships can really deliver positive results, 
positive outcomes, increasing wages. I mean, not only getting 
someone perhaps into a job, and you know, that might just be 
checking a box, but when you really look at raising oneself up 
out of poverty, it means increasing wages and that drive to see 
higher wages with time, with time and effort.
    So, I was wondering if others on the panel, and certainly, 
Mr. Wells, if you want to add emphasis as well to the community 
partnerships that have been formed that bring folks in need, 
whether it is the job opening, whether it is the unemployed 
individual, or the underemployed individual as was mentioned 
before, can you point to some specific community partnerships 
that have been particularly successful?
    Mr. WELLS. Sure. So right now, at the Chicago Urban League, 
we have two projects running with ComEd. ComEd is one of the 
largest electric suppliers in the Midwest, specifically in 
Illinois.
    And one of the projects is called Construct. It is an 11-
week training program to equip individuals with the skills to 
go into the electrical construction industry. So, we partner 
with about seven other agencies and 47 companies are a part of 
this project.
    The 47 companies pay into the program to create that 
pipeline of individuals. The 47 companies are subcontractors 
with ComEd, so we are essentially building that pipeline for 
those companies who claim that, hey, we don't have talented 
workers, we need skilled workers, so we are creating it for 
them.
    Another project that I am running with ComEd is the solar 
PV installation jobs training program. We currently have a 
cohort of 15. It just started April 6th and this is a project 
that we received $1 million for to train one hundred people 
over the course of 4 years.
    We have other partnerships with corporations such as AT&T, 
in which we do digital literacy training to eliminate the 
digital divide and then to also provide individuals to their 
call center jobs and other technical jobs.
    We work with Comcast. We have a relationship with them. We 
train people for jobs at Comcast. We just renewed our contract 
with them.
    And I recently received a contract with the Chicago Transit 
Authority, in which we are training individuals similar to a 
project that we are running with Construct where it is, this 
one is 8 weeks and it is training people to become bus 
operators and also call center representatives.
    Chairman SMITH. Very good.
    Mr. Welner.
    Mr. WELNER. Yes. So, we work with the Kansas Workforce 
Alliance to bring in the underemployed and put them through a 
training program. In fact, we have a Camp Grant to help do 
that.
    We have been fairly successful with it. The challenge that 
we face is that the manufacturing environment isn't necessarily 
appealing to some people. It is a 5-day, sometimes 6-days a 
week job. We are a heavily-unionized company, so you start on 
second shift based on seniority and that brings some challenges 
with it as well.
    But, nonetheless, we are absolutely exploring every avenue 
we can to find workers including looking for community 
partnerships to get to everybody we possibly can.
    Chairman SMITH. Very good.
    Mr. Barrett.
    Mr. BARRETT. We have explored several different avenues 
over the years. But, unfortunately, we have found that being 
where we are in the pecking order in Elkhart County makes it 
more difficult in our line of work. As you may have seen in the 
Wall Street Journal article, the focal hub of manufacturing is 
the RV industry in Elkhart County. And the boat business, we 
are a little bit different. We are classified with RV, but we 
are a different animal. We tend to work at a slower pace. Our 
boats tend to be a little bit more customized than an RV. Our 
pace attracts entry level employees that can work a little bit 
slower, but at the same time, we tend to pay a little bit less.
    So being in that place in the employment pecking order, the 
more valuable or the more skilled employees tend to go to RV 
first and then they filter down to us. So, what happens is 
typically the vocational schools will feed RV before us. We 
have tried several programs to capitalize on job placement, but 
we just have not had much luck.
    Chairman SMITH. Okay. Thank you.
    I now recognize Dr. Davis for 5 minutes of questions.
    Mr. DAVIS. Thank you, Mr. Chairman.
    Mr. Welner, do the high schools and community colleges in 
the area where your plants and facilities are located, are they 
preparing individuals for work in the manufacturing areas?
    Mr. WELNER. So certainly, the community colleges and the 
vocational schools are trying. The challenge is getting the 
students into them, right? We do have some high school programs 
that are starting to take positive effect in terms of 
partnering with a technical school and allowing students to get 
their technical certifications or credentials while they are in 
high school.
    The big challenge seems to be the lack of interest in that 
generation in this type of work. We are starting to push all 
the way down into the middle schools and elementary schools, 
starting to talk to kids about the positive benefits of careers 
in manufacturing. And we don't think of it as just a job, we 
think of it as a career.
    When I started 25 years ago at Learjet, I started as a 
payroll clerk at $8.50 an hour, coming out of a 4-year school 
with a degree in finance. That wasn't my aiming point, but it 
was a way in the door, and that is the promise we are trying to 
talk to these kids about. And if you look at most of our 
leaders in the manufacturing world, they started on the shop 
floor, so it can absolutely be a career and not just a job, but 
we have to get the kids interested in it.
    Mr. DAVIS. So, if there was perhaps more focus put on 
recruitment, because many of the individuals who end up in need 
of TANF are individuals who have gone past or didn't complete 
or did not follow the high school curriculum to the point, so I 
am just thinking that some additional recruitment of this 
population group, especially young adults who have no skill but 
fit the category and the requirements for TANF assistance, I 
think would probably be----
    Mr. WELNER. I think that would be great. I think we have 
lost a lot of the shop classes in the school system. When I 
came through the school system, you could take a mechanical 
shop class, you could take a woodworking class. All of that is 
gone. So, the kids that maybe the regular curriculum isn't 
right for, they don't have anywhere to go.
    Mr. DAVIS. Mr. Wells, I know that the Urban League does not 
officially have a training program that is directly related to 
TANF recipients, but you do get them, right?
    Mr. WELLS. That is correct.
    Mr. DAVIS. I understand people do come who meet the 
criteria to be a TANF recipient. Are you able to connect them 
in any way with TANF or to pursue resources through TANF that 
could benefit them?
    Mr. WELLS. I'm sorry. Are you saying, are you talking 
specifically about TANF participants that come through Chicago 
Urban League's doors and connecting them to different 
resources?
    Mr. DAVIS. Right.
    Mr. WELLS. Yes. So, we do an assessment to figure out what 
the need is, if they come through our doors and they are 
interested in some type of training. Right now, we run several 
of them. We have the Ready to Work Grant in which we provide 
technology training. We have training in supply chain 
management. We have construction training to increase minority 
participation in the trades. So, it depends on what, it depends 
on what they want to do and if they qualify for that, for those 
programs and then we will enroll them in the programs.
    Mr. DAVIS. Well, let me just, I have been particularly 
warmed with the coming with that as an activity relative to 
helping individuals get into the electrical area, so let me 
just commend the Urban League for that affiliation. Thank you 
very much, and I yield back to the Chairman the balance of my 
time.
    Mr. WELLS. Thank you.
    Chairman SMITH. Thank you.
    Ms. Walorski.
    Ms. WALORSKI. Thank you, Mr. Chairman. And to Peter's 
point, there was an article that he referenced in the Wall 
Street Journal last week, and the headline is ``The Future of 
America's Economy Looks a Lot Like Elkhart, Indiana,'' and 
Peter is right down the road from Elkhart in my district.
    The article says, ``High school students skip college for 
factory jobs that offer great pay and benefits. Workers are so 
flush that car dealers can't keep new pickups on the lot. At 
the same time, employers can't hold onto employees.'' It points 
out that the unemployment rate is essentially zero because 
there are 9,500 jobs available in this place in Elkhart.
    So, Peter, to your point, as we talk about that, there are 
challenges between this article and your testimony. Which is 
the hardest to do, find workers, teach them skills, or retain 
them? What is the toughest part of those three for you?
    Mr. BARRETT. That is a really tough choice because all 
three are exceptionally difficult. Retaining employees has been 
very difficult. I will give you an example that happened on 
Monday. I walked into my office and an employee who had been 
with us for 20 years came to me, with tears in his eyes to tell 
me he was leaving. Our employees are family, and so when a 20-
year employee comes to us and he is saying that he is going to 
leave, that is a big deal.
    Martin has worked for us for 20 years. He drives a 
forklift. He found a job across town for $10 more an hour. Our 
industry and our company doesn't have the means to be able to 
raise rates that abruptly, to get into a wage war and to chase 
employees. So we just lost a really good employee who I would 
love to still have, and as I said, he is part of the family. 
This is one of many heartbreaking stories where we are losing 
good employees with longevity. They are leaving good benefits 
and stability in a short-term wage war.
    Ms. WALORSKI. And let me ask you this. With 2017 being a 
record year you talked about, and with tax cuts, with more 
money in folks' pockets, looking at things they want to be 
involved in, do you need to hire more workers? And what if you 
found enough workers, what would that do for your company?
    Mr. BARRETT. If we found more workers we would certainly 
bring our factory up to full capacity. We have three different 
product lines, pontoons, aluminum fishing boats, as well as 
fiberglass. Our aluminum fishing boat's welded line could use 
several more employees. Right now, we have 44 openings which 
need to be filled. Also, if we could get more employees in the 
Elkhart area it would help relieve the supply chain. It is not 
just our business, but it is the supply chain underneath us 
that is suffering, too. So, if our console supplier can't build 
consoles due to an employee shortage, we can't build those 
boats that day.
    Ms. WALORSKI. I appreciate it. I yield back, Mr. Chairman.
    Chairman SMITH. Thank you.
    Mr. Curbelo.
    Mr. CURBELO. Thank you so much, Mr. Chairman. And thank you 
all for being here to discuss this very important topic with 
us. We are focused on how we can help some of the most 
vulnerable, needy people in our country.
    And I have been fortunate to team up with Dr. Davis, this 
Congress, to figure out how we can perhaps modify or leverage 
our existing social welfare programs such as TANF to open new 
doors, provide new opportunities to those who are on the 
sidelines as Chairman Brady tends to say.
    Do you all have any ideas as to how we might be able to use 
those programs, not just to help people get by, but to help get 
them into the workforce, to help them get up on their feet, and 
hopefully eventually become independent of all these programs? 
Anyone who wants to take it.
    Mr. WELLS. I think one of the things that needs to happen 
is an exception needs to be made for those who are interested 
in enrolling in a skills training program. So, if they are 
interested in it, the 20-hour stipulation each week, that needs 
to come down because most of the training programs go past 20 
hours, so I think an exception needs to be made in order for 
them to get an industry-recognized credential and go into some 
type of good-paying job.
    Mr. CURBELO. Does anyone else want to add to that?
    Do you have any thoughts on wage support for employers who 
contract higher, TANF beneficiaries for example?
    Mr. WELNER. We are not really involved with that. Most of 
the people we hire have to have some credentials from a skills 
standpoint because we are building very complex aerostructures 
that require precision and training, so my company is not very 
involved in that, so I can't add much to it.
    Mr. CURBELO. Thank you, Mr. Chairman.
    Chairman SMITH. Thank you. Thank you to everyone here for 
your participation. It means a lot that you would share your 
perspective.
    And please be advised that Members will have 2 weeks to 
submit written questions to be answered later in writing. Those 
questions and your answers will be made part of the formal 
hearing record.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 3:58 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
